U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ian D. Goolsby v. United States of America,
S.Ct. No. 20-6662

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
14, 2020, and placed on the docket on December 18, 2020. The government’s response is due on
January 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6662
GOOLSBY, IAN D.
USA

RANDA DEA MAHER
MAHER AND PITTELL, LLP
14 BOND STREET
SUITE 389
GREAT NECK, NY 11021
516-487-7460
RANDALAW@OPTONLINE.NET

